<html>
<title> - NATIONAL MISSILE DEFENSE AND PROSPECTS FOR U.S.-RUSSIA ABM TREATY ACCOMMODATION</title>
<body><pre>[Senate Hearing 105-193]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 105-193
 
               NATIONAL MISSILE DEFENSE AND PROSPECTS FOR
                  U.S.-RUSSIA ABM TREATY ACCOMMODATION

=======================================================================

                                HEARING

                               before the

                SUBCOMMITTEE ON INTERNATIONAL SECURITY,
                  PROLIFERATION, AND FEDERAL SERVICES

                                 of the

                              COMMITTEE ON
                          GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                       ONE HUNDRED FIFTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 13, 1997

                               __________

      Printed for the use of the Committee on Governmental Affairs





                      U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 1997
39-382cc
_______________________________________________________________________

For sale by the Superintendent of Documents, Congressional Sales Office
         U.S. Government Printing Office, Washington, DC 20402





                   COMMITTEE ON GOVERNMENTAL AFFAIRS

                   FRED THOMPSON, Tennessee, Chairman
WILLIAM V. ROTH, Jr., Delaware       JOHN GLENN, Ohio
TED STEVENS, Alaska                  CARL LEVIN, Michigan
SUSAN M. COLLINS, Maine              JOSEPH I. LIEBERMAN, Connecticut
PETE V. DOMENICI, New Mexico         DANIEL K. AKAKA, Hawaii
THAD COCHRAN, Mississippi            RICHARD J. DURBIN, Illinois
DON NICKLES, Oklahoma                ROBERT G. TORRICELLI, New Jersey
ARLEN SPECTER, Pennsylvania          MAX CLELAND, Georgia
             Hannah S. Sistare, Staff Director and Counsel
                 Leonard Weiss, Minority Staff Director
                    Michal Sue Prosser, Chief Clerk

                                 ------                                


  SUBCOMMITTEE ON INTERNATIONAL SECURITY, PROLIFERATION, AND FEDERAL 
                                SERVICES

                  THAD COCHRAN, Mississippi, Chairman
TED STEVENS, Alaska                  CARL LEVIN, Michigan
SUSAN M. COLLINS, Maine              DANIEL K. AKAKA, Hawaii
PETE V. DOMENICI, New Mexico         RICHARD J. DURBIN, Illinois
DON NICKLES, Oklahoma                ROBERT G. TORRICELLI, New Jersey
ARLEN SPECTER, Pennsylvania          MAX CLELAND, Georgia
                   Mitchel B. Kugler, Staff Director
                Linda Gustitus, Minority Staff Director
                       Julie Sander, Chief Clerk



                            C O N T E N T S

                                 ------                                
Opening statements:

                                                                   Page

    Senator Cochran..............................................     1

    Senator Levin................................................     2

    Senator Stevens..............................................     4

    Senator Collins..............................................     4

    Senator Durbin...............................................    19


                               WITNESSES
                        Thursday, March 13, 1997

Ambassador Max M. Kampelman, Vice Chairman, U.S. Institute of 
  Peace..........................................................     5

Dr. Keith B. Payne, President, National Institute for Public 
  Policy.........................................................     8

Dr. Andrei Kortunov, President, Moscow Public Science Foundation.    12

                     Alphabetical List of Witnesses

Kampelman, Amb. Max M.:
    Testimony....................................................     5

Kortunov, Dr. Andrei:
    Testimony....................................................    12
    Prepared statement...........................................    37

Payne, Dr. Keith B.:
    Testimony....................................................     8
    Prepared statement...........................................    29

                                APPENDIX

Joint U.S.-Russian Statement on a Global Protection System.......    22

Questions and Responses for Dr. Payne............................    35

``Cold Peace'' or Cooperation? The Potential for U.S.-Russian 
  Accommodation on Missile Defense and the ABM Treaty by Dr. 
  Keith Payne, Dr. Andrei Kortunov, Dr. Andrei Shoumikhin, and 
  Mr. Willis Stanley.............................................    43


  NATIONAL MISSILE DEFENSE AND PROSPECTS FOR UNITED STATES-RUSSIA ABM 
                          TREATY ACCOMMODATION

                              ----------                              


                        THURSDAY, MARCH 13, 1997

                                     U.S. Senate,  
                Subcommittee on International Security,    
                     Proliferation, and Federal Services,  
                  of the Committee on Governmental Affairs,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 9:36 a.m., in 
room SD-342, Dirksen Senate Office Building, Hon. Thad Cochran, 
Chairman of the Subcommittee, presiding.
    Present: Senators Cochran, Stevens, Collins, Levin, and 
Durbin.

              OPENING STATEMENT OF SENATOR COCHRAN

    Senator Cochran. The Subcommittee will please come to 
order.
    I first want to welcome everyone to today's hearing of our 
Governmental Affairs Subcommittee on International Security, 
Proliferation, and Federal Services. The topic of our hearing 
today is ``National Missile Defense and Prospects for U.S.-
Russian ABM Treaty Accommodation.''
    At the Subcommittee's first hearing on nuclear deterrence 
last month, there were questions about the relationship between 
U.S. deployment of a national missile defense and Russian 
ratification of the START II treaty. During today's hearing, we 
will have the opportunity to listen to and ask questions of the 
principal authors of a just-published study sponsored by the 
U.S. Institute of Peace entitled ``Cold Peace or Cooperation? 
The Potential for U.S.-Russian Accommodation on Missile Defense 
and the ABM Treaty.'' \1\
---------------------------------------------------------------------------
    \1\ The study referred to appears in the Appendix on page 43.
---------------------------------------------------------------------------
    It is important to note that the study and its findings 
have been endorsed by former Ambassador to the United States 
Vladimir Lukin, who is now Chairman of the International 
Relations Committee of the Russian Duma. The study, which has 
already been briefed to National Security Council officials, 
concludes that the deployment of a national missile defense by 
the United States and reductions to strategic offensive weapons 
in both the United States and Russia need not be mutually 
exclusive.
    That being said, while the Senate provided advice and 
consent to the ratification of START II more than 1 year ago, 
the treaty has not yet been ratified by Russia. While various 
Russians have included in their reluctance to ratify START II 
concern over U.S. plans for national missile defense, the fact 
of the matter is that there are many other reasons Russians in 
both the Yeltsin administration and the Duma have given for 
their failure to ratify START II.
    In October, for example, Alexi Arbatov, who is Deputy 
Chairman of the Duma's Defense Committee, listed some of these 
reasons when he said, ``First, there is no money for it. 
Secondly, the treaty is considered to be unfair on technical 
grounds. And thirdly, the general background--the determination 
of NATO to expand to the east--is very unfavorable to the 
treaty.''
    The United States must take Russian concerns into account 
before deploying a national missile defense system and S. 7, 
the National Missile Defense Act of 1997, seeks to take these 
concerns into account. S. 7, in fact, specifically ``urges the 
President to pursue, if necessary, high-level discussions with 
the Russian Federation to achieve agreement to amend the ABM 
Treaty to allow deployment of the national missile defense 
system.''
    Ultimately, though, we cannot make our security dependent 
upon Russian willingness to cooperate. The world has changed 
greatly in the quarter century since the ABM Treaty was 
negotiated. There now are many nations who are hostile to the 
United States working hard to acquire long-range missiles armed 
with weapons of mass destruction.
    My own bottom line on the ABM Treaty is very simple. We 
seek to cooperate with Russia, but ultimately, the defense of 
our country is more important than the defense of a treaty that 
puts our country at risk. Indeed, this study proposes that in 
the context of mutual accommodation, a new arms control 
agreement integrating strategic offensive and defensive forces 
could supercede the ABM Treaty.
    Today's witnesses have addressed these issues in their 
fascinating study and we are indebted to the U.S. Institute of 
Peace for funding their work. We will hear first from 
Ambassador Max Kampelman, a highly respected arms control 
negotiator in both Republican and Democratic administrations 
who is the Vice Chairman of the U.S. Institute of Peace.
    Next, we will listen to Dr. Keith Payne, the principal 
American author of the study. Dr. Payne is the President of the 
National Institute for Public Policy and is also a member of 
the faculty of Georgetown University's National Security 
Studies Program in the School of Foreign Service.
    Then we will hear from Dr. Andrei Kortunov, principal 
Russian author of the study, who is President of the Moscow 
Public Science Foundation. Dr. Kortunov is the former Head of 
the Department of Foreign Policy at the Institute of USA and 
Canada Studies of the Russian Academy of Sciences and is a 
close advisor to the Russian Defense Ministry and senior 
members of the Duma.
    Before hearing from our witnesses, I will be happy to yield 
to the distinguished ranking member of the Subcommittee, Carl 
Levin, Senator from Michigan.

               OPENING STATEMENT OF SENATOR LEVIN

    Senator Levin. Thank you, Mr. Chairman. Let me add my 
welcome to your welcome to our three witnesses today. It is a 
very important topic, this question of the future of U.S.-
Russian cooperation in security affairs, particularly as it 
relates to nuclear weapons and ballistic missile defense and 
the ABM Treaty.
    A prior commitment which had long been scheduled at the 
Armed Services Committee is going to take me away, I am afraid, 
and perhaps not allow me to come back. We have the Commanders 
in Chief at the Armed Services Committee today who are 
responsible for our nuclear forces and our space command, so it 
is kind of the operational end of the issues which we are 
considering here today.
    I think we all share the view that it is important for both 
the United States and Russia to try to understand and 
accommodate each other's legitimate security concerns. 
Cooperative U.S.-Soviet efforts on arms control were one of the 
positive constants of the Cold War. There were not too many 
positive parts to that period, but at least on arms control, we 
had some cooperation. Those efforts helped to avert crises and 
they established predictability and understanding that served 
the Nation and served the world well.
    Those efforts, including the ABM Treaty, permitted both 
sides to reduce their nuclear arsenals in a manner which 
increases our mutual security. That is what the ABM Treaty is 
about, at least partly; the reduction of nuclear weapons which 
it allowed.
    So we have to treat very carefully suggestions that we 
unilaterally withdraw from or violate the ABM Treaty because 
the consequences could include the end of nuclear arms 
reductions that we either have secured or that we are trying to 
secure, including START I and II. So precipitous or unilateral 
withdrawal or violation could jeopardize American security.
    I agree with our Chairman, that it is America's security 
that we have a responsibility to protect and defend and 
maintain. It is not the ABM Treaty itself that counts. It is 
what that treaty has permitted us to do, which is to have 
significant reductions in weapons, which is what I believe, 
this discussion is all about.
    We have made some important gains in cooperative security 
arrangements since the end of the Cold War and the collapse of 
the Soviet Union, including the Nunn-Lugar Cooperative Threat 
Reduction Program that has helped to completely denuclearize 
three nations that inherited nuclear weapons from the former 
Soviet Union. We have already moved away from the old days of 
mutual assured destruction and we have removed many of our 
nuclear forces from alert. Both nations have detargeted our 
nuclear missiles, which substantially eliminates the problem of 
an accidental missile launch, and these gains must be protected 
and enhanced.
    I understand that the study which our witnesses are going 
to discuss today concludes that it is desirable and possible 
that the U.S. and Russia reach a level of accommodation on 
these interrelated issues. That strikes me as a good common 
goal and I would hope that is the alternative that we seek, 
namely a mutual level of accommodation between ourselves and 
Russia.
    If we cannot achieve something mutual, if it is in our 
interest to move unilaterally, then so be it. But if it is not 
in our interest to move unilaterally, to violate an agreement 
which has allowed us to achieve significant reductions in 
nuclear weapons, then it would not be in our interest to 
violate unilaterally or withdraw from that treaty.
    I look forward to hearing at least part of our witnesses' 
testimony and I want to thank you, Mr. Chairman, for calling 
the hearing today, even though it is at a time when I am afraid 
I cannot attend most of it.
    Senator Cochran. Thank you, Senator Levin.
    Senator Stevens.

              OPENING STATEMENT OF SENATOR STEVENS

    Senator Stevens. Mr. Chairman, I will be brief. As a young 
Senator, I sat here on this Subcommittee with Senator Henry 
``Scoop'' Jackson when he used the Subcommittee on 
International Security for the purpose of exploring the 
relationships between the United States and the Soviet Union. I 
am delighted that you are proceeding now as Chairman of the 
Subcommittee to expand the concepts of the Subcommittee and you 
have a distinguished panel here this morning.
    We have had the Arms Control Observer Group now since 1985 
but we have not had the power to hold public hearings and one 
of the things that has been missing from the dialogue, I think, 
is the opportunity to explore in depth some of the new concepts 
that are really affecting our balance of power with Russia and 
the world, as far as our missile capability and as far as the 
development for our systems of protection against the threat of 
the use of such weapons against our country.
    Senator Cochran. Thank you very much, Senator Stevens.
    Senator Collins.

              OPENING STATEMENT OF SENATOR COLLINS

    Senator Collins. Thank you very much, Mr. Chairman. I would 
like to thank you and commend you for calling this very 
important hearing this morning.
    The proliferation of weapons of mass destruction is a 
critical issue that demands the attention of this Subcommittee 
and, indeed, the entire Congress. The world today is very 
different than it was 25 years ago when the United States and 
the Union of Soviet Socialist Republics signed the treaty on 
the limitation of anti-ballistic missile systems. Today, rogue 
nations with fanatical leaders are freely pursuing ballistic 
missile delivery systems. It is imperative that today's issues 
and capabilities are reflected in a fully encompassing 
deterrence doctrine.
    I would like to commend the authors of the study that we 
are going to be focusing on today for producing such a thorough 
and extensive work on this complex and critical issue. I look 
forward to hearing their witnesses and learning more about this 
critical issue. Thank you.
    Senator Cochran. Thank you, Senator Collins.
    Ambassador Kampelman, please proceed.

TESTIMONY OF AMBASSADOR MAX M. KAMPELMAN, VICE CHAIRMAN, UNITED 
                   STATES INSTITUTE OF PEACE

    Ambassador Kampelman. Thank you, Mr. Chairman. I was 
pleased to receive your invitation to participate in the 
Committee's session this morning.
    The missile defense issue, in my opinion, will increasingly 
come to the forefront of public discussions, particularly as 
the American people come to understand that our government has, 
to this point, not committed to the deployment of defenses 
against missiles that may reach us carrying nuclear, 
biological, and chemical weapons. The desirability of exploring 
the potential for accommodation in this area between our 
country and Russia, the subject matter of the paper before you 
authored by Dr. Keith Payne, Dr. Andrei Kortunov, and others, 
is self-evident.
    At the very outset, let me say, as the Vice Chairman of the 
United States Institute of Peace (USIP), that we were pleased, 
through a grant, to help stimulate that study. In 1984, during 
the administration of President Reagan and with his support, 
the Congress established the Institute of Peace as a non-
partisan and bi-partisan one and charged it with the task of 
pursuing ideas, plans, and studies that might open up 
intellectual and practical paths toward peace. We do that in 
association with experts, academicians, non-governmental 
organizations, government agencies, and wherever we see 
opportunities, here and abroad, for creative thinking.
    The application for a grant by Dr. Keith Payne in 
cooperation with Dr. Kortunov, which led to this paper, met our 
criteria. The U.S. Institute of Peace takes no public policy 
positions. Our only condition for this grant was that the study 
and the report be ``track two,'' non-governmental, with no 
government officials involved in writing the study.
    I appear before you this morning, however, in a personal 
capacity, as well. I support missile defenses, and I would like 
to elaborate on that within the context of the paper before 
you.
    In March 1985, President Reagan asked me to head the U.S. 
negotiating team for a renewed effort with the Soviet Union to 
reduce and eliminate nuclear arms. In addition, he asked me to 
concentrate on the issue of missile defenses as reflected in 
his Strategic Defense Initiative. This followed an article on 
the subject published in the New York Times Magazine and 
coauthored by Dr. Zbigniew Brzezinski, Dr. Robert Jastrow, and 
me.
    Critics of the President's SDI program, fortuitously from 
their point of view, labeled the SDI program as ``star wars.'' 
This was inaccurate because its object was to avoid rather than 
project war in space. The existence of attack missiles 
traversing space was already a reality. The SDI program was 
designed to stop and destroy those weapons in space.
    The President instructed that the SDI research be non-
nuclear, and he offered the prospect of U.S. cooperation with 
the Soviets in the development of the defenses. The President's 
instruction also included the admonition that the research be 
undertaken within the confines of the ABM Treaty.
    Reference to the Treaty leads me to share with you a 
conversation I had in Geneva at the time with one of the 
leaders of the Soviet Union, a Politburo member, who wanted to 
understand our American negotiating position. The irony of our 
respective positions on how to define the ABM Treaty became 
evident to him as well as to me as I pointed out that the 
Soviet Union was now defining the Treaty just as we had 
interpreted it in 1972. And we were interpreting the Treaty as 
the Soviets had in 1972. We were both energetically defending 
our reversed positions with fervor. Didn't that seem a foolish 
way for grown adults to behave, I suggested to him? He smiled, 
agreed, and asked for my suggestion.
    At first, I suggested that he look at the Treaty's Agreed 
Statement ``(D)'', which clearly recognized that the state of 
our scientific knowledge in 1972, the date of the Treaty's 
signing, would be surpassed by new knowledge. It, therefore, 
provided for new discussions and agreements in the event of 
``ABM systems based on other physical principles.'' In effect, 
it called for us to renegotiate the applicability of the ABM 
Treaty in the face of new technologies.
    I went on to acknowledge that the Soviet Union was looking 
at the ABM Treaty as a holy document. There were many in the 
United States similarly oriented. How to treat a holy document?
    The U.S. had another holy document, I pointed out, our 
Constitution, adopted in 1787. It has been amended. It has been 
interpreted and reinterpreted. Indeed, in many respects, it is 
barely recognizable as it has evolved, but it is still our holy 
document. (Parenthetically, Mr. Chairman, I am here reminded of 
the Yoga Berra type insight that if any of our revered founding 
fathers would be alive today, they would look at our 
Constitution and how it has been interpreted and turn over in 
their graves.)
    In any event, I pointed out to my Soviet colleague that if 
we want the ABM Treaty to continue as a holy document, we 
should stop the foolish debate about what was intended in 1972 
and instead sit down and negotiate what is in our mutual best 
interest today. We could then assert, if we wish, that was the 
1972 intent, as well.
    That remains my position today, Mr. Chairman. That is why I 
am encouraged by the paper before you today. That is also why I 
was so disappointed that our government did not respond with 
alacrity and enthusiasm to President Yeltsin's proposal in 1992 
to create a Global Protection System, an internationalizing of 
ballistic missile defense with a global early warning and 
missile defense capability.
    The Bush administration first delayed its response, but bi-
lateral talks on the subject did begin and seemed to hold 
promise for joint understanding. The Russians, we were told, 
looked upon those talks as indicative of U.S. willingness to 
work closely with them on security problems and on missile 
defenses in particular. The Clinton administration, 
regrettably, downgraded and then discontinued the talks. The 
paper before you recommends that the talks be reconvened in a 
new forum.
    I welcome your hearings, Mr. Chairman, in the hope that the 
unofficial but effective talks which you will now learn about 
may lead to high-level, meaningful government-to-government 
talks on how best to cooperate as we both develop ballistic 
missile defenses. An effective national missile defense program 
is in our interest, particularly as we take into account the 
development of long-range missiles in other parts of the world.
    It is also in the long-range interest of the Russian 
Federation which may well find its existing defenses to be 
inadequate. It would, obviously, be best if our programs could 
be undertaken within an agreed-upon formula with the Russian 
Federation following negotiations provided for in the ABM 
Treaty.
    I personally have no problem looking at the ABM Treaty as a 
holy document. For it to so survive, however, its original hope 
that it be a ``living agreement'' must be respected. Articles 
13 and 14 provide for amendments. Agreed Statement ``D'' 
provides for talks to deal with negotiations in the light of 
new technologies. Article 15 provides a procedure for 
withdrawal.
    I would personally not flaunt or threaten our withdrawal. 
Everyone knows we can do so should it become clear to us that 
the Treaty handcuffs us from defending ourselves against likely 
ballistic missile threats. It is not necessary publicly to 
emphasize withdrawal and thereby subject ourselves to being 
perceived as a de-stabilizing influence, when, indeed, our 
intent and interest is in the reverse.
    It is, however, also clear that engaging in discussion of 
amendments or definitions with the Russians for the purpose of 
permitting limited national missile defense is not contrary to 
the treaty's letter or spirit.
    The paper before you represents a good foundation for new 
high-level talks. Instead of threats and instead of arguments 
about what was intended by us in 1972, we should seriously 
explore what is now in our separate national interests and how 
we can harmonize these interests in a joint program which meets 
both of our interests. We can then find the words and agreement 
that will interpret the ABM Treaty accordingly.
    I must add, however, that I do not want my words to convey 
the impression that the negotiation will be easy or inevitably 
successful. The subject is serious and important for both of us 
and the talks may take time. But they are necessary.
    To overcome the suspicion that now exists, our country must 
demonstrate that our intent and policy is not ``anti-Russian.'' 
We want the people and government of the Russian Federation to 
be secure and prosperous and democratic. We expect the Russian 
Federation to demonstrate to us in return that they can be 
trusted to be a force for stability rather than a supporter of 
``rogue states'' that threaten the stability of other peoples 
and states.
    Your proposed legislation, Mr. Chairman, goes far in the 
direction which I am urging. For that I commend you and your 
colleagues. But I wish to close with an earnest appeal that 
this Committee produce a bi-partisan piece of legislation that 
can help create a national consensus behind an effective 
national missile defense program. Partisanship is a necessary 
part of the democratic process, but on issues of vital national 
interest, particularly on national security, we should make a 
serious effort to avoid the costly divisiveness which it 
produces.
    This past weekend, I had the occasion to read a commentary 
on George Washington's Farewell Address to the Nation. He 
warned of the ``baneful effects of the Spirit of Party,'' which 
he said tended to stimulate the ``strongest passion of the 
human mind'' and, therefore, presented a ``constant danger of 
excess,'' which, he said, overpowers reason, distracts 
governments, and agitates the community. Let us make an effort, 
Mr. Chairman, to avoid that divisiveness and digression. Thank 
you.
    Senator Cochran. Thank you very much, Ambassador Kampelman, 
for your excellent and thoughtful statement.
    We will now hear from Dr. Keith Payne, President of the 
National Institute for Public Policy.

 TESTIMONY OF KEITH B. PAYNE,\1\ PRESIDENT, NATIONAL INSTITUTE 
                       FOR PUBLIC POLICY

    Dr. Payne. Thank you, Mr. Chairman. It is an honor to be 
here today and I thank you for the opportunity to summarize the 
findings of the U.S.-Russian study that the United States 
Institute of Peace generously sponsored, as Ambassador 
Kampelman has described.
---------------------------------------------------------------------------
    \1\ The prepared statement by Dr. Payne appears in the Appendix on 
page 29.
---------------------------------------------------------------------------
    This study has been complicated, it has been occasionally 
difficult, but it is a great pleasure at long last to have 
findings that are worth presenting.
    Our goal was to examine a sensitive national security 
question on which the United States and Russia have sharply 
differing perspectives, that being the future of national 
missile defense (NMD) and the ABM Treaty. As we initiated this 
study, we hoped to drop the Cold War blinders that still seem 
to burden most thinking on the subject and to identify a route 
to mutual accommodation on national missile defense and the ABM 
Treaty.
    I would like to take a few minutes to outline the basic 
U.S. and Russian interests that need to be accommodated and 
summarize briefly how this study reached its primary conclusion 
that mutual accommodation should, in principle, be feasible.
    First, the U.S. interest in national missile defense 
clearly is driven by the threats posed by proliferation. A 
significant number of countries are seeking or already have 
acquired chemical, biological, and nuclear weapons as well as 
advanced missile delivery systems. Rogue proliferant states, 
such as North Korea, Iran, Iraq, and Libya, seek these 
capabilities, at least in part to deter and coerce the United 
States.
    The Gulf War taught the mistake of challenging the United 
States at the conventional force level. The lesson, 
unfortunately, of the Gulf War for rogue military and political 
leaders is that U.S. conventional power can only be trumped by 
the capability to deter and coerce the United States with 
weapons of mass destruction and the ability to deliver those 
weapons reliably.
    In at least one case, that of North Korea, there appears to 
be a missile in development, the Taepo Dong II, that is, in 
fact, intended to strike U.S. territory or threaten U.S. 
territory directly, and rogue states themselves have declared 
that weapons of mass destruction and missiles offer them the 
potential necessary to deter and coerce the United States.
    The U.S. answer to this emerging threat includes ballistic 
missile defense. The Bush and Clinton administrations refocused 
the U.S. missile defense program away from the large Soviet and 
now Russian missile capabilities and toward the emerging, far 
more limited missile threats from regional powers, the 
proliferant states.
    The Clinton administration has declared its willingness to 
pursue limited national missile defense along with ABM Treaty 
modification, if necessary, when it deems a new long-range 
threat to be emerging. This position, as stated, is not far 
different from the expressed Congressional position in favor of 
an immediate decision to deploy a limited national missile 
defense in anticipation of long-range rogue missiles.
    As former Secretary of Defense Perry declared on this 
subject, and I quote, ``The only difference between us and 
Congress is an issue of timing. There is not a philosophical or 
technical difference between us. It is a matter of judgment on 
the timing of how quickly we have to move to meet the threat.''
    In general, however, Russia opposes U.S. national missile 
defense plans and programs. The dominant view in Moscow, as Dr. 
Kortunov will elaborate, I am sure, the dominant view in Moscow 
clearly is that U.S. intentions toward Russia are hostile and, 
correspondingly, that U.S. missile defense initiatives are not 
for counterproliferation purposes. Rather, they are an element 
in a well-orchestrated plan to undermine Russian security while 
Russia is relatively weak. Russian officials and analysts point 
to NATO expansion, START II, and some U.S. counterproliferation 
activities as elements of this overall anti-Russian grand 
design.
    Many, perhaps most, in the Russian military and political 
establishment subscribe to this pessimistic view, as it is 
termed in our study. They conclude that even an initially 
limited national missile defense would be intended to weaken 
Russia, and once deployed, it would grow inevitably to threaten 
the Russian strategic nuclear deterrent vis-a-vis the United 
States.
    Concern in Moscow over Russia's nuclear deterrent is 
particularly high at this point as the deterioration of 
Russia's conventional forces has strengthened the role of 
nuclear weapons in Russian military strategy. Therefore, we see 
strong Russian opposition to U.S. NMD aspirations and support 
for preservation of the 1972 ABM Treaty.
    While this pessimistic school dominates in Moscow, a more 
pragmatic approach to these issues maintains that Russia 
should, in fact, pursue mutual accommodation with the United 
States. This more pragmatic position is not based on a 
philanthropic perspective or romantic expectations of an 
immediate U.S.-Russian strategic partnership. Rather, its 
starting point is that U.S. national missile defense is 
inevitable over time.
    Pragmatists consider the worst future course to be one 
wherein an inflexible Russian position on national missile 
defense leads the United States to withdraw from the ABM Treaty 
and move towards national missile defense without any 
constraints. In this context, mutual accommodation is judged to 
be a better alternative because it offers a means of protecting 
the basic Russian interest in maintaining its strategic nuclear 
deterrent.
    Our study presents a specific proposal for reaching a 
pragmatic mutual accommodation that safeguards Russia's 
fundamental interest in maintaining its strategic nuclear 
deterrent while at the same time facilitating the U.S. 
initiative for a limited national missile defense.
    The key to this mutual accommodation is U.S. willingness to 
commit in concrete ways to limiting its national missile 
defense capabilities, and Russian acceptance of the U.S. NMD 
deployment and the potential need to modify or replace the ABM 
Treaty.
    There is no necessary inconsistency between limited 
national missile defense and the preservation of mutual nuclear 
deterrence. Limited national missile defense designed to defend 
against ``a few dozen warheads,'' to use former Secretary of 
Defense Perry's statement, need not undermine U.S.-Russian 
strategic deterrence, even at offensive force levels below 
START II.
    This compatibility of limited national missile defense with 
mutual deterrence was outlined as early as 1969 by Harold 
Brown, who subsequently served as Jimmy Carter's Secretary of 
Defense. At that time, in 1969, when the two sides had fewer 
than 1,700 strategic missile warheads, about half of the START 
II ceiling that we are looking forward to, Dr. Brown proposed 
that the U.S. deploy several hundred national missile defense 
interceptors to deal with third country attacks without 
upsetting the U.S.-Soviet deterrence balance.
    The mutual accommodation that we identify in our study is 
based on striking this balance between limited national missile 
defense capabilities and continued mutual deterrence. The study 
suggests that such a balance could be based on a new strategic 
arms control framework that integrates offensive and defensive 
forces.
    In principle, an agreement could specify, for example, a 
single ceiling for offensive and defensive missiles with each 
side having the prerogative of choosing its specific balance 
between offense and defense. In the terms of the trade, that is 
referred to as a freedom to mix.
    The goal of this arms control framework would be to ensure 
that the limitations on offensive and defensive forces would 
combine to help protect each side's strategic retaliatory 
capabilities. Greater leeway for national missile defense, for 
example, would be complimented by restrictions on those 
offensive forces capable of threatening retaliatory forces, 
called counterforce systems. These include, for example, large 
MIRVed ICBMs. This new offensive/defensive arms control 
framework would supercede the ABM Treaty, although restrictions 
on NMD clearly would remain.
    It is important to note here that this proposal is radical 
in form, but it is not radical in substance. For decades, the 
goal of the U.S. strategic arms control policy has been to 
limit national missile defense and counterforce offensive 
systems so as to help preserve the survivability of strategic 
retaliatory forces.
    In the past, we severely limited national missile defense 
but found it exceedingly difficult to gain Soviet agreement to 
limit offensive counterforce systems. The mutual accommodation 
suggested in our study pursues the same objective of protecting 
retaliatory capabilities while this time making room for 
limited national missile defense.
    I would also like to note that my preference and the 
preference of each contributor to our study, both on the U.S. 
side and the Russian side, is that the United States and Russia 
move away from a strategic deterrence relationship based 
ultimately on mutual nuclear threats ``mutual assured 
destruction,'' frequently referred to as MAD. We are not 
satisfied with our own outline for mutual accommodation that 
essentially revises MAD only to allow for limited national 
missile defense protection against rogue missiles.
    Nevertheless, and I believe unfortunately, it is obvious 
that the condition necessary for moving away from MAD is a 
level of political amity that does not yet exist, and we were 
reduced to the hope that the mutual accommodation we outline 
can serve as a step toward the political relationship that 
ultimately will allow us to abandon MAD.
    In our study, we did not attempt to suggest the specific 
type of limited national missile defense the United States 
should pursue or the specific types of limitations to be placed 
on either offensive or defensive forces under this new arms 
control framework. The important details can be determined and 
negotiated only after the United States identifies the level of 
NMD it deems necessary to address the existing and anticipated 
third party missile threat, and after Russia determines the 
type of strategic offensive deterrent that it seeks to 
maintain. These are the two key factors that must be balanced 
if mutual accommodation is to be possible and they would drive 
the specific character of a new arms control regime.
    I would like to conclude with two final points. First, our 
study points to a potential roadblock to mutual accommodation, 
even if Russia and the United States are inclined towards 
mutual accommodation, and that roadblock is ABM Treaty 
multilateralization. The Clinton administration has expressed 
its commitment to recognize multiple new countries in addition 
to Russia as the legitimate successors to the ABM Treaty. Our 
concern is that any negotiations to revise the treaty can only 
be complicated, slowed, and perhaps rendered impossible by the 
introduction of many new agendas and interests.
    Finally, I have had the opportunity to read S. 7, the 
National Missile Defense Act of 1997, and I am encouraged to 
see that it is entirely compatible with the path towards mutual 
accommodation outlined in our study. In fact, it confirms the 
important points that, one, the United States' national missile 
defense goal is for the capability to protect against limited 
missile threats, it is not anti-Russian; two, the expressed 
desire in section 6(a) is for a cooperative, negotiated 
approach to ABM Treaty revision, not unilateral treaty 
withdrawal or violation; and however, three, there is some 
prospect for unilateral U.S. movement if a good faith 
cooperative approach does not bear fruit.
    For reasons already discussed, each one of these points 
will be important if we are to pursue the pragmatic mutual 
accommodation presented in our study. Thank you, Mr. Chairman.
    Senator Cochran. Thank you very much, Dr. Payne, for your 
excellent contribution to the hearing and particularly for your 
leadership in the drafting of this impressive paper that is the 
subject of our hearing today.
    Dr. Andrei Kortunov, you may proceed. Welcome.

   TESTIMONY OF ANDREI KORTUNOV,\1\ PRESIDENT, MOSCOW PUBLIC 
                       SCIENCE FOUNDATION

    Dr. Kortunov. Thank you, Mr. Chairman. It is really an 
honor for me to be here today. I appreciate the privilege of 
presenting for your consideration the results of the Russian-
American study that Dr. Keith Payne and I have worked on 
together cooperatively for almost 2 years.\2\
---------------------------------------------------------------------------
    \1\ The prepared statement by Dr. Kortunov appears in the Appendix 
on page 37.
    \1\ The study ``Cold Peace'' or Cooperation? The Potential for 
U.S.-Russian Accommodation on Missile Defense and the ABM Treaty, by 
Dr. Keith Payne, Dr. Andrei Kortunov, Dr. Andrei Shoumikhin, and Mr. 
Willis Stanley appears in the Appendix on page 43.
---------------------------------------------------------------------------
    I am pleased to report that the study is receiving 
favorable attention in Moscow, most notably that it has been 
reviewed and its findings endorsed by Ambassador Vladimir 
Lukin, the Chairman of the International Relations Committee of 
the Russian State Duma.
    After the collapse of the former Soviet Union, the Russian 
Federation finds itself in a quite unique position. Russia is a 
unique product of things new and old. It began by boldly 
rejecting most of the Communist legacy, yet the Soviet past 
continues to bear heavily on Russian thinking and the behavior 
of its political, military, and other elites.
    Russian positions on the array of issues related to 
countering proliferation and ballistic missile defense, and 
particularly to the U.S. plans and activities aimed at creating 
and deploying NMD, give ample evidence of the contradictory 
influences on, as well as to the ambiguity of, Russian national 
goals.
    At the current stage, the predominant official Russian 
position tends to be quite negative as far as the U.S. BMD 
agenda is concerned. Generally, it appears that Russia sees no 
pressing need for endorsing a move toward greater BMD 
activities because of a couple of reasons. First of all, it is 
concerned about and suspicions of U.S. BMD intentions and 
programs.
    Second, it has a very different view from that of the 
United States on the nature and scope of threats emanating from 
WMD and ballistic missile proliferation.
    Third, it lacks resources for any major new large-scale 
military programs.
    And finally, it considers her existing NMD and nuclear 
deterrent capabilities inherited from the former USSR 
sufficient to take care of current and future challenges, 
especially from third world countries. On top of that comes 
considerable Russian confusion about U.S. NMD goals and the 
outcome of U.S. legislative-executive controversies on issues 
related to NMD deployment.
    It might be assumed that unless prevailing Russian 
attitudes and positions change, Russia may pursue harsh and 
perhaps disproportionate responses to any U.S. NMD deployment, 
especially if it is accompanied by Washington's unilateral ABM 
Treaty withdrawal. To prevent these issues from becoming a 
major ``bone of contention'' in Russian-American relations, 
extra efforts at understanding each other's position on the 
entire range of BMD-related problems and a determined search 
for mutual accommodation should be undertaken.
    Admittedly, since the collapse of the system of Soviet-
American superpower competition, only a very narrow minority of 
Russian politicians and experts actually fear that the two 
countries will become engaged in renewed hostilities. At the 
same time, earlier idealistic hopes that Russia and America 
would be able to engage in a ``strategic partnership'' turned 
out to be unrealistic.
    In view of their country's current serious weaknesses, 
Russian leaders and public opinion tend to react in a most 
pained way to any U.S. moves that appear to be aimed either at 
isolating or taking advantage of Russia. Admittedly, many 
Russian fears and doubts vis-a-vis the West are based in a 
peculiar ``psychology of the underdog,'' developed through 
previous periods of East-West adversarial relations. However, 
some Western actions and attitudes, for example, the NATO 
expansion, START II, as well as U.S. activities in the BMD 
area, particularly including U.S. discontinuation of the Ross-
Mamedov talks, substantiate the position of those in Moscow 
expressing a fairly high level of acrimony and suspicion.
    Russia does not have comfortable answers to many questions 
related to U.S. BMD efforts. For example, would a limited U.S. 
NMD inevitably expand in the future, if Russia agreed to its 
deployment by revising the ABM Treaty as desired by the 
American side? And, why are the attempts at increasing American 
defensive and power projection capabilities taking place at the 
time of Russia's greatest economic and military vulnerability?
    Another serious problem for the Russian side is 
understanding--and believing--that ``limited'' U.S. NMD 
activities are indeed driven by the fear of ``rogue'' states' 
ballistic missile potential. The notion that U.S. NMD plans 
are, in fact, directed against Russia seems to be much more 
plausible in Moscow, especially as the U.S. intelligence 
estimates themselves claim that there is no immediate threat 
from so-called rogue states.
    Additionally, the Russian side is alarmed that U.S. NMD 
would upset the mutual deterrence relationship between the two 
nations and is intended to do so. Russian suspicions were 
intensified in the light of the fact that future reductions of 
Russia's strategic offensive nuclear forces in accordance with 
START II provisions coincided with the stated U.S. goal of 
having an operational NMD system by the year 2003.
    The question, then, of whether and how a Russian-U.S. 
accommodation may be reached is as difficult as it is 
important. The Russian willingness to accommodate will depend 
largely on how serious the United States is about NMD, and the 
evolution of the Russian internal political context and on the 
leadership's general orientation toward relations with the 
United States--which in turn will be greatly influenced by U.S. 
behavior.
    The current political reality in Moscow on the issues of 
missile defense, the ABM Treaty, and proliferation includes the 
existence of a variety of often diametrically opposite views 
among elite groups. The following distinct ``schools of 
thought'' may be identified.
    The ``traditionalists'' or ``pessimists'' currently enjoy 
the greatest prominence and influence on the Russian political 
scene, although, as we all know, the situation in Moscow is 
quite fluid. They demand that the ABM Treaty should be left 
totally intact and stipulate that any attempt by the United 
States to expand its current BMD potential should be met with 
resolute Russian countermeasures. There is obviously very 
little room for accommodation on these issues from the 
traditionalist perspective.
    Another ``extreme'' position in the spectrum of Russian 
views on these issues may be labeled as the ``revisionist'' 
position. It is held by those who consider the ABM Treaty as 
largely an unnecessary ``relic'' of the Cold War, presenting 
nothing more than an impediment on the way to authentically 
different, cooperative Russian-American relations in the 
strategic area. This is a distinctly minority opinion; it 
enjoyed credibility during the early 1990s, but has since then 
been eclipsed politically.
    A third school of thought, the ``realists'' or 
``pragmatists,'' assumes that, under the circumstances of 
proliferation, deployment of a limited U.S. NMD is practically 
inevitable, and that Russia ultimately will not be unable to 
prevent such a deployment. Consequently, these pragmatists 
believe that Russia should be able to shape the future 
direction of U.S. NMD development and deployment in ways that 
promote Russian interests, particularly through the vehicle of 
the ABM Treaty. It is noteworthy that many Russian ``realists'' 
are to be found among military experts who tend to deal more 
with hard facts than with political intricacies and ideological 
dogma.
    The pragmatists seem to occupy an intermediary position 
between the traditional pessimists and revisionists. For 
pragmatists, it is apparent that accepting modifications to the 
ABM Treaty, as an important U.S. goal, is a much better choice 
and lesser ``evil'' than unilateral American withdrawal from 
the Treaty, leading to a serious disruption of overall U.S.-
Russian relations at a time when Russia is unable to seriously 
compete with the United States in any area, particularly that 
of extensive military development.
    A crucial question arises in this connection: What may help 
to move the pragmatist position to the center-stage of the 
Russian political spectrum without waiting for some autonomous 
and fundamental change in the mentality, principles, and 
methods of the traditional Russian policy making elite?
    It appears that several processes, especially if they 
evolve on parallel lines, may be of significant value. Movement 
toward the pragmatic school and mutual accommodation on 
outstanding BMD/ABM Treaty issues could be encouraged by the 
United States clearly and officially stating its goals on 
counterproliferation and especially that its NMD aspirations 
are limited. It also would be useful for the United States to 
specify the needed amendments or revisions to the specific 
limitations of the ABM Treaty.
    The diverse and sometimes even contradictory voices and 
positions on these issues coming from Washington clearly 
provide fodder for those Russians skeptical about any positive 
movement in Russian-American relations, and who, for their own 
political reasons, present U.S. counterproliferation and 
missile defense goals as being ``anti-Russian.''
    A clearer and consistent U.S. voice will at least help 
remove lingering misunderstandings and intentional 
exaggerations of declared U.S. intentions.
    Reconciling conflicting positions on missile defense and 
ABM Treaty issues may be possible at the background of a high-
level political declaration of mutual interest in finding 
accommodation. In view of the unique Russian political culture 
and tradition, a top-down approach is essential for changing 
policy and the policy debate in Moscow. It would demonstrate 
for the Moscow elite that seeking mutual accommodation is an 
acceptable option for discussion and compatible with Russian 
interests. A proper venue for developing and making such a 
declaration may be a future summit between the Presidents of 
the two nations specifically devoted to addressing this issue.
    Further search for accommodation could then be pursued 
within a framework similar to the discontinued Ross-Mamedov 
talks that were set in motion by President Yeltsin's January 
1992 proposal for a Global Protection System (GPS), and the 
subsequent June 1992 summit of Presidents Yeltsin and Bush. We 
all remember that the purpose of the Ross-Mamedov talks was to 
establish the basis for moving forward together on GPS. It must 
be acknowledged that the American refusal to continue the GPS 
dialogue after 1992 left quite an unfortunate ``after-taste'' 
with the Russians, indicating perhaps a lack of sufficient U.S. 
interest in cooperation on missile defense, as proposed by 
President Yeltsin.
    The establishment of a new forum akin to Ross-Mamedov could 
be dedicated to integrating joint consideration of several 
issues related to proliferation and BMD, including: the ABM 
Treaty, early warning, strategic stability, export control 
restrictions, and offensive and defensive strategic arms 
control efforts after START II (whatever its disposition).
    In this fashion, the subject of accommodation on missile 
defense and the ABM Treaty would not be separated from the 
broader fabric of related issues, and it would not be 
vulnerable to Russian criticism that the U.S. agenda for 
accommodation and cooperation is limited to the lone case of 
missile defense and the ABM Treaty. Rather, accommodation and 
potential cooperation in this area would be part of a broader 
range of related issues in Russian-American relations.
    Russian readiness to pursue joint ventures in the area of 
missile defense, embracing joint ABM, particularly TMD systems, 
cooperation in early warning, development of multilateral 
control regimes, etc., has been expressed in the past on 
different occasions. Indications of a similar U.S. readiness 
will be crucial to alleviating current Russian doubts and fears 
about U.S. plans and intentions.
    The pragmatists are convinced that dealing with arms 
control in a novel way--one that goes beyond merely 
``codifying'' the current situation of mutual deterrence, and 
creates preconditions for substantive qualitative change in the 
foundations of bi-lateral relations--has clear long-term mutual 
advantages. Both sides must, however, find and demonstrate 
sufficient political will to effect needed changes in their 
perceptions and ``modus operandi'' in the strategic area.
    In this connection, it may be crucial to consider an 
approach to arms control that links the reduction of strategic 
offensive forces with greater license for limited NMD programs. 
As a means of achieving mutual accommodation on the issue of 
limited NMD and the ABM Treaty, a renewed bi-lateral venue 
could be very useful for examining the potential for 
integrating offensive and defensive forces under a single arms 
control framework.
    In conclusion, let me note that establishing the necessary 
conditions for broad-based strategic cooperation--moving beyond 
the level of simple accommodation on particular issues--may 
ultimately be possible only by changing the political-
psychological environment of bi-lateral Russian-American 
relations; that is, moving away from reflexive Cold War 
suspicions and anxieties.
    However, getting outside past philosophies, e.g. Mutual 
Assured Destruction, etc., would be extremely beneficial for 
both societies. As is witnessed by some important processes 
currently developing in our relations--from summitry to 
interparliamentary dialogue--the appropriate tools and will-
power to achieve this honorable goal is already in place, and 
have to be maximally expanded and strengthened. My colleagues 
and I hope that our cooperative bi-lateral study will 
contribute to that end.
    Senator Cochran. Thank you very much for your excellent 
contribution to our hearing, Dr. Kortunov. We appreciate your 
being here.
    Ambassador Kampelman, in your statement on page 5, you 
refer to legislation which has been proposed that you say goes 
far in the direction of establishing a national consensus or 
helping to create a national consensus behind an effective 
missile defense program. I wonder whether you have had an 
opportunity to analyze S. 7, the National Missile Defense Act 
of 1997, to the extent that you can say whether you think it is 
compatible with the conclusions of the Payne-Kortunov paper. Is 
it the kind of balance between the maintenance of deterrence 
and the deployment of missile defense that you think can be 
achieved with a renewed discussion and dialogue between our two 
countries?
    Ambassador Kampelman. I do think, Mr. Chairman, that it is 
compatible with the paper and the objectives of the paper. I 
would suggest, however, that the specific reference in the 
legislation to withdrawal after a year, assuming no results 
come from the talks during the course of that year, would, in 
my view, certainly not be welcome by the Russian co-authors of 
this paper, and in my opinion, as you could tell from my own 
testimony, is not necessarily in our national interest, as I 
see it.
    I do not personally believe in exclamations of aggression. 
I would rather have the strength, have the capacity to do it, 
and we have the capacity to withdraw and everybody knows we 
have the capacity to withdraw.
    In addition, the kind of talks that are necessary, I think, 
might be talks that would be extended far beyond the year. We 
face a very complicated issue and require, as Dr. Kortunov 
points out, require not only technical understandings but 
breakthroughs psychologically with respect to attitudes. We are 
also dealing with a long history through the Cold War of 
mistrusts and these are not the kinds of issues that can be 
resolved quickly or by a certain date.
    Senator Cochran. I notice also on that same page in your 
prepared statement you caution that you do not want your 
testimony to convey the impression that the negotiations 
between Russia and the U.S. would be easy or inevitably 
successful. The subject is serious and important for both of us 
and the talks may take time but they are necessary.
    There is almost a pessimistic ring to that, as I read it. 
Is it intended to be?
    Ambassador Kampelman. That is a very perceptive comment, 
Mr. Chairman. What is clearly intended by me is for both sides 
in the negotiation to understand that there can be results from 
a negotiation that are worse than having no agreement at all. I 
have certainly, in my role as the negotiator for the United 
States in the arms field, have attempted always to convey that 
our aim not an agreement at any price, that the issues are 
complicated, they have to meet our standards, they have to meet 
our needs and our security interests, and I am sure the other 
side feels the same way about it.
    What my sentence was intended to convey it is certainly to 
convey to negotiators and to the public, there is nothing 
certain about getting a result out of a negotiation. If the 
other side feels you are obligated to get a result, it 
interferes adversely with your negotiating position and your 
negotiating strength and also conveys the wrong message to the 
body politic.
    As a lawyer, for example, I frequently would advise our 
younger lawyers in our firm that sometimes arriving at no 
agreement is better than arriving at an agreement that is not 
in your client's interest, and that is really primarily what I 
am attempting to convey. This is tough, no inevitability about 
it, but if we are serious about it and genuine about it, I 
think we can come to an agreement.
    Senator Cochran. The fact is that the Clinton 
administration broke off the discussions that had begun in the 
Bush administration on this global protection system. Is that 
also the kind of action or decision that makes it more 
difficult in our relationship with Russia to reach some 
accommodation on this subject?
    Ambassador Kampelman. I think we made a mistake in breaking 
off those talks. On the other hand, I do not believe it is the 
kind of a mistake that cannot be retrieved. There are, 
obviously, in the last couple of years, renewed talks and 
exchanges between our Vice President and the Russian Prime 
Minister and between the two Presidents. I think our 
administration today understands the need for talks and I think 
the Russians are beginning to understand the utility of these 
talks, as well.
    So I do not think that it is a kind of irreconcilable 
problem that was created by the withdrawal. I think we lost 
valuable time. I think we also strengthened some negative 
influences in Russia by the withdrawing from those talks, which 
is going to make it a little bit tougher for us, but I would 
hope that we could get started and it is not too late.
    Senator Cochran. Dr. Payne, in your study, you say that 
multilateralizing the ABM Treaty could seriously impair the 
potential for achieving mutual accommodation with Russia on the 
ABM Treaty. Is that a potential problem because you get other 
nations involved in the ABM Treaty? How does that undermine the 
potential to achieve accommodation with Russia?
    Dr. Payne. That is a good question, Senator. By and large, 
our experience in the past, and perhaps Ambassador Kampelman 
would be the best to comment on this, but our experience in the 
past has been as you add parties to negotiations, particularly 
two, three, or four, possibly five additional parties, those 
parties obviously bring their own agendas to the table. They 
bring their own goals to the table.
    In trying to address an issue as sensitive, as complicated 
as the ABM Treaty, and possible revisions to the ABM Treaty, 
there's just no doubt in my mind that as you load up the 
various agendas that countries would bring to the table and the 
various goals that they might have in any sort of negotiations, 
that even if the United States in that context, even if the 
United States and Russia were inclined towards mutual 
accommodation, and that would be quite an achievement in 
itself, mutual accommodation could be prevented simply because 
so many agendas would have to be negotiated. So many interests 
would have to be protected that we might never be able to reach 
the goal of accommodation. That is my major concern with 
multilateralization.
    Senator Cochran. Dr. Kortunov, could you describe for us 
the Yeltsin proposal for a Global Protection System? And let us 
have your perspective as to the impact of the breakdown in the 
talks. What were the talks achieving, or were they making 
progress in the talks from the Russian point of view to help 
develop some kind of understanding for a Global Protection 
System?
    Dr. Kortunov. At the time when Mr. Yeltsin made this 
proposal Russia was going through a unique period in her 
history. She was busy revising the heritage left over from the 
former Soviet Union, including that in the field of arms 
control.
    The new leaders who came to power in Moscow tried to break 
away from old pattern of strategic relations with the United 
States to prove that to their own people and to the Americans 
that the situation of mutual assured destruction, mutual 
vulnerability, is not something that we would have to live with 
forever. As you probably remember, it was also the time when 
Russia even tried to get into the NATO Alliance as a full 
member.
    So the idea behind the talks was to look for some 
different, more positive basis for strategic interaction 
between the United States and Russia, to change the principles 
of strategic stability on the assumption that Russia and 
America are allies rather than adversaries. Therefore, the 
initial idea was to work jointly in the field of early warning. 
However, if the United States was ready to go further on that, 
both nations could start developing a global defense system 
against accidental launches or launches from rogue states.
    To the best of my knowledge, during that period, Russia was 
seriously considering the use of the system of former Soviet 
raders to protect not just the Russian Federation but countries 
interested in such a protection against launches from rogue 
states. I think that interaction in this area could be very 
beneficial for both nations because it could open an avenue for 
an entirely different pattern of their relations in the 
strategic area.
    The termination of those talks was interpreted in Russia, 
at least by many, as a sign that the United States would prefer 
to stick to the traditional pattern of relations, i.e. that 
mutual assured destruction was, is, and will be the ``name of 
the game'' between the two countries. Such a situation helped 
improve the positions of those who opposed any revisions of the 
ABM Treaty, by bringing them back to their traditional track.
    Senator Cochran. Senator Durbin, you have been very patient 
during my questioning. I am happy to recognize you at this time 
for any comments or questions that you might have.

              OPENING STATEMENT OF SENATOR DURBIN

    Senator Durbin. Senator, it has been a learning experience. 
Thank you. And if I could ask a few questions of the panel, I 
would appreciate it.
    First, since President Reagan announced the concept of a 
Strategic Defense Initiative, I believe that was 12 or 13 years 
ago, how much money have we spent on this concept in the United 
States?
    Dr. Payne. The figure that is usually mentioned is around 
$30 billion.
    Senator Durbin. Total expenditure? And does anyone give an 
estimate as to how much more will need to be spent before we 
have achieved the creation of a system that we can fairly 
characterize as an NMD or a national missile defense system?
    Dr. Payne. Well, the CBO, I believe, last year came out 
with several estimates. For a very limited national missile 
defense system, the estimates ranged from, I believe, $4 to $14 
billion. For a thicker, more robust system, the estimate went 
up to, I believe, $50 to $60 billion.
    Senator Durbin. Over what period of time?
    Dr. Payne. I believe it was 5 to 7 years, something in that 
area.
    Senator Durbin. Ambassador Kampelman, does my memory serve 
me correctly? When President Reagan announced this concept, did 
he not suggest that we would reach a point where we would share 
this technology with the Soviet Union?
    Ambassador Kampelman. Exactly, and as a matter of fact, 
that was part of the proposal. As I indicated in my testimony 
earlier, another part of the proposal was that our defense 
system would be totally non-nuclear. The third part of the 
proposal was that the research that is to be underway be within 
the context of the ABM Treaty.
    Senator Durbin. Can you tell me, in this debate with Russia 
concerning the status of the ABM Treaty and any need to change 
it to pursue the national missile defense system, has there 
been an ongoing discussion about our actually sharing this 
technology with Russia once we have put it in place and are 
confident that it would defend the United States?
    Ambassador Kampelman. To the best of my knowledge, there 
has been no such discussion by this administration with the 
Russian Federation on this question. I do know, having 
personally heard this, that President Reagan and Mr. Gorbachev, 
President Gorbachev, did talk about this. There was an initial 
skepticism, a deep skepticism on the part of the Soviet Union 
at the time that we were genuine about sharing this know-how. 
President Reagan on one occasion that I can think of 
energetically attempted to persuade President Gorbachev that he 
was quite genuine about the suggestion, and in private 
conversations, I know President Reagan indicated that there are 
no secrets here.
    Senator Durbin. As proof positive of the defensive nature 
of this system, do you think it is advisable for us to share 
this technology with Russia?
    Ambassador Kampelman. I think it is advisable for us, 
strongly advisable for us to sit down and figure out how we can 
develop joint approaches, sharing of information, see what our 
needs are. Yes, I do.
    Senator Durbin. Dr. Kortunov, if the debate moves to that 
level, would this allay some of the fears of the Russian 
government that, in fact, our national missile defense system 
is not totally defensive in nature?
    Dr. Kortunov. Absolutely. I can tell you that it is a 
matter of very heated discussions. Even at the highest levels 
of Russian government, there are doubts of American sincerity 
and good intentions. However, if the United States could 
demonstrate even limited readiness, for example, on the issue 
of TMD, I think it would make a major breakthrough. In effect 
this may positively affect other aspects of the bi-lateral 
relationship, including, for example, the issue of the NATO 
enlargement.
    Senator Durbin. So, Dr. Payne, if we were to pursue this, 
and I am going to ask you for your reaction to these questions 
that I have asked, if we were to pursue this concept of sharing 
technology with the Russians to assure them that this is a 
defensive effort by the United States and not to put them in 
jeopardy, could you see this as a way to really build toward a 
new thinking on this issue? What I am suggesting is sharing 
information on missile defense while at the same time asking of 
those nations who share this information that they aggressively 
pursue counterproliferation.
    Dr. Payne. Yes, Senator. In fact, if you go back and look 
at the results of the Ross-Mamedov talks, which Ambassador 
Kampelman referred to and Dr. Kortunov referred to, there are 
unclassified summaries of what was actually--the ground that 
was covered in those talks and it included, for example, U.S. 
willingness to share processed early warning information with 
the Russian side and a U.S. willingness to share the results of 
ballistic missile defense capabilities.
    So in some ways, what you proposed or described in this 
concept was ground covered during the Ross-Mamedov talks. That 
is why I believe, and I believe my colleagues at the table 
believe, that was a very fruitful venture and would have gone a 
long way towards ameliorating the skepticism on the Russian 
side that we know now exists.
    Senator Durbin. It has been a long time since I took 
courses at the School of Foreign Service and I do not know if 
anything I have suggested today is along the lines that might 
put us back to the table in a more positive frame of mind. We 
have large questions to resolve with the Russians and Russian 
leadership in terms of the future of NATO and the future of 
national missile defense, but I do go back to President 
Reagan's promise, and I will concede that I was skeptical then 
and I am skeptical today as to whether this can be achieved. 
But I thought the one promising statement that he made was that 
if we achieved it, we would share it in a show of faith that it 
is defensive in nature.
    I continue to believe that we have threats, even nuclear 
threats, to this country that are far greater that do not 
involve missiles and that we should be looking to protect the 
American citizenry as aggressively on those fronts as we do 
when it comes to missile defense.
    I thank you for your testimony and for your hard work on 
this study, and Mr. Chairman, thank you for allowing me to ask 
questions.
    Senator Cochran. Thank you, Senator, for your contribution 
to the hearing.
    In connection with the status of effort to develop jointly 
with the two governments, the U.S. and Russia, a Global 
Protection System, I think it is worth noting for the record 
that there was at the June 17, 1992, summit here in Washington 
between Boris Yeltsin and President George Bush a statement 
issued on that subject and it confirms the commitment of both 
countries to work together to develop such a system and to 
share the technology. I am going to ask that be printed in the 
record at this point to reflect the understanding that was 
reached at that time.
    I think, appropriately, the wording, in part, is as 
follows. ``The two Presidents agreed it is necessary to start 
work without delay to develop the concept of the GPS,'' the 
Global Protection System. ``For this purpose, they agreed to 
establish a high-level group to explore on a priority basis the 
following practical steps: The potential for sharing of early 
warning information through the establishment of an early 
warning center; the potential for cooperation with 
participating states in developing ballistic missile defense 
capabilities and technologies; the development of a legal basis 
for cooperation, including new treaties and agreements and 
possible changes to existing treaties and agreements necessary 
to implement a Global Protection System. For the United States 
of America, George Bush. For the Russian Federation, Boris 
Yeltsin.'' And this statement was issued along with the 
statement announcing the framework for START II.
    Without objection, this statement will be printed in the 
record.
    [The Joint U.S.-Russian Statement on a Global Protection 
System follows:]

                             Documentation

Document No. 2
                            THE WHITE HOUSE
                     Office of the Press Secretary
                             June 17, 1992

       JOINT U.S.-RUSSIAN STATEMENT ON A GLOBAL PROTECTION SYSTEM

    The Presidents continued their discussion of the potential benefits 
of a Global Protection System (GPS) against ballistic missiles, 
agreeing that it is important to explore the role for defenses in 
protecting against limited ballistic missile attacks. The two 
Presidents agreed that their two nations should work together with 
allies and other interested states in developing a concept for such a 
system as part of an overall strategy regarding the proliferation of 
ballistic missiles and weapons of mass destruction. Such cooperation 
would be a tangible expression of the new relationship that exists 
between Russia and the United States and would involve them in an 
important undertaking with other nations of the world community.
    The two Presidents agreed it is necessary to start work without 
delay to develop the concept of the GPS. For this purpose they agreed 
to establish a high-level group to explore on a priority basis the 
following practical steps:

    <bullet> LThe potential for sharing of early-warning information 
through the establishment of an early-warning center
    <bullet> LThe potential for cooperation with participating states 
in developing ballistic missile defense capabilities and technologies
    <bullet> LThe development of a legal basis for cooperation, 
including new treaties and agreements and possible changes to existing 
treaties and agreements necessary to implement a Global Protection 
System.

      For the United States of America:
          George Bush

      For the Russian Federation:
          Boris Yeltsin

                              ----------                              


    Senator Cochran. Just to confirm the outlook, is it the 
consensus of our panel that this can still be the basis for the 
establishment of a new round of talks and the beginning of a 
new dialogue between the two countries to achieve the goal of a 
Global Protection System? Let us start with Dr. Kortunov.
    Dr. Kortunov. Senator, I think that right now, it will 
probably be a little bit more difficult than it was back in 
1992. However, I think that we should try to make such an 
attempt and I think that it may be the best way to resolve the 
problem related to the ABM Treaty.
    Senator Cochran. Dr. Payne.
    Dr. Payne. I agree that there has been some water under the 
bridge since 1992. Nevertheless, we would like to see a new 
forum, at least similar to the Ross-Mamedov talks initiated so 
that we could perhaps get back to that political situation 
where we were able to consider a Global Protection System.
    Senator Cochran. Mr. Ambassador.
    Ambassador Kampelman. I do not believe it is too late. I 
think we should do that.
    Senator Cochran. One question that I have, Dr. Kortunov, is 
on the subject of the attitude in Russia today about the mutual 
assured destruction doctrine. You talked about the fact that it 
was the impression in Russia that the U.S., because of the 
break-off of these discussions, had reverted to this old 
doctrine. There are many of us who want to disavow it and are 
working to try to change it and to try to explore ways to do 
that would be compatible with a stable relationship and a 
mutual relationship of trust between Russia and the United 
States.
    Does Russia continue to embrace the mutual assured 
destruction doctrine? Does it see the United States as the 
primary focus of its nuclear deterrence threat?
    Dr. Kortunov. As far as the Russian public opinion on the 
nature of political relations between the two countries is 
concerned, the answer is no. I do not believe that the Russian 
people considers the United States to be the prime opponent. 
Nor does it feel the need for Russia to maintain a serious 
deterrent capability against the United States.
    However, at the level of operational planning, the concept 
of mutual assured destruction remains to be the fundamental 
principle for defense planning, even though, to reiterate, the 
Russian people, like the public in this country, has never been 
comfortable with the concept of mutual assured destruction. It 
is even less comfortable with it right now since the United 
States is perceived as mostly a friendly country.
    Senator Cochran. Dr. Payne, I know that former Secretary of 
Defense Perry has expressed a desire to change the U.S.-Russian 
strategic relationship from one that is based on mutual assured 
destruction to one based on mutual assured security. Would you 
tell us what you think Secretary Perry had in mind with this 
mutual assured security suggestion and how does it fit in with 
your study and the comments that you have made today?
    Dr. Payne. I never heard or read of any follow-up or a 
definition of what mutual assured security was meant to imply. 
What I assume was suggested there would be a continuing 
reduction of offensive forces, strategic nuclear offensive 
forces, to a point where both sides' defensive forces then 
could, in fact, provide each side with mutual assured security 
vis-a-vis one another. Although both sides still would retain 
presumably a nuclear deterrent vis-a-vis third states, 
providing security for Russia and the United States and 
providing both sides with a continuing deterrent against other 
parties that they might be concerned about.
    Senator Cochran. You have indicated that you think there is 
broad support in Congress to change the ABM Treaty to reflect 
the modern dangers emerging in the security environment in 
which we are in. Ambassador Kampelman pointed out we need to 
have a bipartisan effort here and national security is not a 
partisan issue.
    Do you see any evidence of support on both sides of the 
aisle? Obviously, there is support on the Republican side since 
this legislation that has been introduced is primarily a 
Republican initiative. How likely do you see the development of 
bipartisan support for modifying the ABM Treaty to be?
    Dr. Payne. Sir, I simply look at the votes going back to 
the Missile Defense Act of 1995, the Missile Defense Act of 
1996, and the Defend America Act of 1996, and the votes in 
support of those seemed to be overwhelming and bipartisan, so I 
take great encouragement in that.
    Senator Cochran. Senator Levin, we welcome you back to the 
hearing. I apologize for having this conflict develop on your 
account because I know you are keenly interested in these 
issues and you have been very active in the Senate on these 
issues. I am happy to yield to you for any comments or 
questions you might have of the witnesses.
    Senator Levin. Thank you very much, Mr. Chairman.
    I do not know that we ever had a vote on the National 
Missile Defense Act, by the way, but we recently in the Senate, 
at least, did have a vote on the adoption of an approach to 
this which Senators Warner, Cohen, Nunn, and myself had agreed 
upon. Are you familiar with that agreement, that language?
    Dr. Payne. If you are referring to, for example, the Cohen 
Amendment to, I believe it was to the Missile Defense Act of 
1995 or 1996, surely.
    Senator Levin. It was the four of us who agreed on the 
language, which was offered as an amendment, which basically 
said that we will continue to develop and to be in a position 
where we can deploy a system but not commit ourselves at this 
time to such a deployment. We would leave that determination 
instead to a time after we have developed such a system, when 
we know what the technology is, know what the threats are, know 
what the cost is--both in terms of ballistic missiles and in 
terms of other threats like cruise missiles and other kinds of 
threats to us, so we can weigh all the conditions and 
circumstances at that time. So the agreement was to continue to 
develop but not commit to deploy, since such a commitment, 
regardless of the ABM Treaty, would be a threatening statement 
that we are going to deploy regardless of what the 
circumstances are and regardless of what the impacts are on 
nuclear arms reduction.
    Is your conclusion consistent with the Nunn-Warner-Cohen-
Levin approach?
    Dr. Payne. In some ways, it is not consistent with the 
findings of the study. One of the points that our Russian 
colleagues made to us consistently was that the dynamic behind 
the Russian willingness to engage in mutual accommodation is a 
level of seriousness that the U.S. displays with regard to its 
intent to deploy. And, in fact, it is written in the study by 
the Russian authors that the motivation on their side for 
mutual accommodation does not come from some romantic hope for 
an immediate strategic partnership but from the view that NMD 
deployment by the U.S. is inevitable and, therefore, mutual 
accommodation is the better alternative.
    As a result of that, it seems to me that anything that 
suggests that the United States is serious about NMD and 
intends to go in this direction actually contributes to the 
potential for mutual accommodation, as long as we on the U.S. 
side do not overstep and become highly provocative.
    Senator Levin. Well, that is the question, where is that 
line? Now, Ambassador Kampelman has suggested that we not talk 
about withdrawing from the treaty. If you say now that, 
regardless of the impact on nuclear arms reduction, regardless 
of what the Duma is going to do in terms of ratification of 
START II, regardless of circumstances that exist 2 years from 
now and what other threats there are, we are going to deploy a 
system, you have stepped over that line. You are saying 
effectively, we are going to pull out of ABM. That is what you 
are saying if you take the position that we are deciding right 
now we are going to deploy rather than we are going to put 
ourselves into a position where we can decide whether or not to 
deploy.
    I would like to ask Ambassador Kampelman this question, and 
then I will get to Dr. Kortunov. Should we decide today that we 
are going to withdraw from the ABM Treaty if we cannot get a 
modification of it that would allow us to deploy a system?
    Ambassador Kampelman. My own view is that the Russians have 
to be made to understand that should our national interest 
require it, we will withdraw from that treaty. I welcome the 
kind of legislation you talked about because we are not then 
delayed in our research, in our preparation, in our capacity to 
deploy. The will to deploy in the event it is in our national 
interest, I think, is universal.
    There is always a question as to what is in our national 
interest, when do we face that point. The thrust of my comment 
was that we not necessarily waive the withdrawal alternative 
about.
    In other words, what I am saying is that the concern that 
Keith Payne is expressing, which is that the pragmatists in 
Moscow have to be made to understand that we may very well 
deploy, that is something which I think we can communicate 
without the necessity for making statements about it or making 
decisions now to deploy.
    Senator Levin. Well, you have put your finger right on it. 
They should understand that we may, indeed, deploy, but that is 
very different from a decision now to deploy, would you agree?
    Ambassador Kampelman. I do.
    Senator Levin. Dr. Kortunov, on that question, do you wish 
to add a comment on that question?
    Dr. Kortunov. First, it appears that those in Moscow who 
are trying to follow events on the Hill cannot fail to notice 
that there are some positive dynamics, at least in the wording 
used in the new legislation. Indeed, if we are to compare the 
National Missile Defense Act of 1997 with previous documents, 
the Russians may indeed observe some positive changes which 
open more ways for accommodation.
    Second, it is really important for Russians to get a 
realistic picture of U.S. threat perceptions. Presently we are 
getting pretty conflicting messages from Washington about the 
seriousness of the threat from the so-called rogue states. 
There are also very different official U.S. assessments on this 
score.
    In Moscow's perception, there indeed may be a serious 
threat to the U.S. mainland in 10 or 15 years. However, this 
threat is not immediate and does not require the United States 
to withdraw from the ABM Treaty right now. Therefore if such a 
decision is to be taken tomorrow, it might be interpreted in 
Russia as an unfriendly act by the United States. A clear 
definition of threat to the U.S. and U.S. threat perception 
might give Russians an opportunity to adjust themselves to the 
strategic requirements and problems of the United States.
    Senator Levin. Ambassador, it seems to me you are basically 
where the four of us that I mentioned were when we said, let us 
put ourselves in a position as quickly as we can to make a 
decision based on whatever technology is the best and on what 
the threats are at that time. I want to make sure, then, that I 
have heard you right.
    We all would agree, I think, that we will act in the 
national interest, whatever that national interest appears to 
be when we act. If it is in our national interest to withdraw 
from the ABM Treaty, we would do so, and if it is not in our 
national interest to withdraw, we would not do so.
    I think some of us have already decided whether it would be 
in our national interest. Others are saying, let us wait until 
we are in a position to make the decision and let us in the 
meantime try to negotiate a modification which would allow us 
to move mutually towards defenses which would make us more 
secure. Hopefully, we can modify the treaty in such a way that 
limited national missile defenses are possible if the 
technologies are there and the threats are there and the 
funding makes sense relative to other threats. But to make a 
decision now to deploy a limited national missile defense goes 
beyond what I just said.
    Ambassador, just so I get you clearly on the record, do you 
think we should decide now to deploy a national missile 
defense, or should we continue our development stage and 
indicate a determination that we are going to act in the 
national interest and that may well indeed involve a 
deployment, but that decision should be made later and not now?
    Ambassador Kampelman. I think you have stated my view, but 
I would like to add an explanation, which is I am not in favor 
of now withdrawing from the ABM Treaty. The act of deployment 
would, in effect, be a withdrawal from the ABM Treaty and it is 
for that reason, since I do not wish us now to withdraw from 
the ABM Treaty, but indeed see damaging consequences from that, 
without an actual requirement that we do that. I do not want 
our country to be put into that aggressive position.
    I do, however, want to start the talks with the Russian 
Federation as quickly as possible and as seriously as we can 
based on the assumption and understanding that we may very well 
be withdrawing once it is in our national interest to do so. 
The fact that ABM is considered a holy document for the 
Russians would not keep us from doing so if our national 
interest requires it.
    Senator Levin. OK. That is helpful.
    Am I out of time?
    Senator Cochran. No. You go ahead.
    Senator Levin. Just one final comment, and that is the 
executive summary of this study has a statement that there is a 
Congressional position in favor of an immediate decision to 
deploy a limited NMD and I do not think that is accurate if it 
implies that Congress has decided to deploy. Congress has 
decided to proceed to develop but has left open the deployment 
decision, basically. But I do not think that statement in your 
executive summary is accurate, if I read it correctly. I may 
not be reading it correctly, but I think I am. It is the fourth 
paragraph on page 123.
    Dr. Payne. The pagination on the copy I have is different 
from yours, sir, but we will be a happy to take a look at it 
and if it is incorrect, we will revise it.
    Senator Levin. I think there is obviously not an action 
that Congress has yet taken, other than to put in significant 
development money, which we are doing and will continue to do 
so we can be in a position to make the right decision at the 
right time.
    But I think I agree with the thrust, that we should 
continue to negotiate, to look for ways that we can act in our 
mutual defense and that if we can find a way to do so, to 
deploy a limited national missile defense with the Russians, 
that we would both be in a stronger position, whether or not it 
is worth the money, whether or not the technology is good 
enough, whether or not the threats are real enough compared to 
a cruise missile threat. I just heard about the cruise missile 
threat in a hearing room in another building where the head of 
our Strategic Command says the threat from cruise missiles are, 
I believe greater than the threat from ballistic missiles. I 
think most people would agree with that. Both threats are 
limited and remote in the eyes of the intelligence community 
but one is a little less remote than the other; the cruise 
missile threat is a little less remote than the ballistic 
missile threat.
    So, yes. Would we be safer if we could do it mutually 
without messing up our START I and START II agreement? Yes. Is 
it worth the money? Maybe, when we know the costs and know what 
the technology is. But again, I believe that the right time to 
do that would be after we do the development, assess the cost, 
assess the capability, assess the threat, and try to work out 
something mutual with our Russian friends. That, to me, is the 
way to do it.
    But then I would agree with what I think you are saying. If 
at some point it is in our national interest to deploy a 
system, we will deploy that system. But until then, to make a 
commitment which could drive the arms reductions in exactly the 
wrong direction and tear at a friendship which is growing 
between ourselves and the Russians and to do so needlessly 
because we have not gotten to the point where we need to make 
that decision, it seems to me would be the wrong way to go.
    But being an optimist, I view what I just said as being 
basically consistent with the thrust of what you are trying to 
do in this paper, and if I am giving it more optimism from my 
perspective than it deserves, then ship it over to me and I 
will rewrite it.
    Dr. Payne. Senator Levin----
    Ambassador Kampelman. I would like to suggest, if I may--
Mr. Chairman, may I make a comment----
    Senator Cochran. Certainly, Mr. Ambassador.
    Ambassador Kampelman [continuing]. That the mutuality 
should not only be a mutuality between the United States and 
Russia, it ought to be also a mutuality within the Congress 
itself rather than a partisan issue as a way to develop a 
national consensus behind this increasingly serious problem.
    Senator Cochran. Thank you. Dr. Payne.
    Dr. Payne. I just wanted to make a comment with regard to 
the language suggesting Congressional intent behind the 
decision to deploy as opposed to a decision to develop. I am 
thinking back, for example, to the Missile Defense Act of 1991, 
the Missile Defense Act of 1995. I do not have that language 
here in front of me, but I believe each of those Acts included 
Congressional language calling for the deployment of national 
missile defense, at least of some variety. Perhaps that is what 
the executive summary sentence that you are referring to, 
Senator Levin, was referring to, because I believe there is 
language on the record from the Congress calling for the 
deployment of national missile defense.
    Senator Levin. Relative to that, on page 2 of your 
testimony, you make that same statement, that there is express 
Congressional position in favor of an immediate decision to 
deploy. I think if you read all of what Congress has done, you 
may want to modify that because it is a little more complicated 
than that.
    Dr. Payne. Fair enough.
    Senator Cochran. But is it not true, Dr. Payne, on that 
subject that a single missile defense site is permitted by the 
ABM Treaty?
    Dr. Payne. Yes, sir.
    Senator Cochran. Is it a suggestion that the deployment is 
somehow directly flying in the face of the ABM Treaty is just 
wrong?
    Ambassador Kampelman. Good point.
    Dr. Payne. Yes, sir.
    Senator Levin. I think that is accurate.
    Senator Cochran. So in S. 7, that is one reason why I think 
the Secretary of Defense is given the latitude to determine if 
a national missile defense system is necessary to defend all of 
the United States from a limited attack and if the NMD system 
selected by the Secretary is outside the bounds of the ABM 
Treaty, he is urged under the terms of the legislation to 
pursue the necessary discussions with the Russian Federation to 
achieve an agreement, if it is necessary, to amend the treaty, 
to allow deployment of such an NMD system.
    Dr. Payne. Mr. Chairman, the reason why I mentioned in my 
prepared statement that it seems to me that S. 7 is consistent 
with our findings is specifically because the language with 
regard to the ABM Treaty does not call for the withdrawal from 
the ABM Treaty. It does not call for the violation of the ABM 
Treaty. It says that if the negotiations suggested do not bear 
fruit within a year, the Congress and the President could 
consider that option----
    Senator Cochran. Right.
    Dr. Payne [continuing]. And that is a self-evidently true 
statement and I think it is useful to put that marker down but 
to put it down in the gentle way that it is, it says we will 
consult on the issue. It does not say we will withdraw from the 
treaty, and that is why, in my opinion, it threads the needle 
nicely.
    Senator Cochran. Thank you very much. Let me say, I think 
this has been an outstanding hearing in every way. It has been 
helpful to our better understanding the issues that are 
currently involved in the dialogue between Russia and the U.S. 
on these subjects.
    We have had, I think, a much better understanding developed 
among the members of our Committee who will, I am sure, benefit 
from the testimony and the contribution of the witnesses that 
have been made today, and for that we are very grateful, Dr. 
Kortunov, for your presence here and your contribution to this 
paper with Dr. Payne. I think your collaboration on it has been 
one of the important contributions to the understanding of the 
importance of this issue and of further talks.
    Ambassador Kampelman, your perspective from your 
involvement in negotiations in the past and your following the 
issues today as you continue to has been a high point for all 
of us to consider.
    Let me say that this Subcommittee will continue to explore 
these issues as we convene another hearing on April 10. At that 
time, we will consider proliferation, Chinese case studies. 
Until then, the Subcommittee is in adjournment.
    [Whereupon, at 11:22 a.m., the Subcommittee was adjourned.]



    The remainder of this hearing is the testimony of Dr.
Keith B. Payne. It is in graphic format and is unavailable in this
document.
</pre></body></html>
